<html>
<title> - IMPLEMENTATION OF THE TRANSPORTATION EQUITY ACT FOR THE 21ST CENTURY</title>
<body><pre>[Senate Hearing 106-438]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-438

 
  IMPLEMENTATION OF THE TRANSPORTATION EQUITY ACT FOR THE 21ST CENTURY

=======================================================================

                                HEARINGS

                               BEFORE THE

                            SUBCOMMITTEE ON 
                   TRANSPORTATION AND INFRASTRUCTURE

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                     APRIL 15, 29, AND JUNE 9, 1999

                               __________

  Printed for the use of the Committee on Environment and Public Works



                    U.S. GOVERNMENT PRINTING OFFICE
59-382cc                    WASHINGTON : 2000

_______________________________________________________________________

            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402



               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       one hundred sixth congress
                 JOHN H. CHAFEE, Rhode Island, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
ROBERT SMITH, New Hampshire          DANIEL PATRICK MOYNIHAN, New York
JAMES M. INHOFE, Oklahoma            FRANK R. LAUTENBERG, New Jersey
CRAIG THOMAS, Wyoming                HARRY REID, Nevada
CHRISTOPHER S. BOND, Missouri        BOB GRAHAM, Florida
GEORGE V. VOINOVICH, Ohio            JOSEPH I. LIEBERMAN, Connecticut
MICHAEL D. CRAPO, Idaho              BARBARA BOXER, California
ROBERT F. BENNETT, Utah              RON WYDEN, Oregon
KAY BAILEY HUTCHISON, Texas
                     Jimmie Powell, Staff Director
               J. Thomas Sliter, Minority Staff Director
                                 ------                                

           Subcommittee on Transportation and Infrastructure

                  GEORGE V. VOINOVICH, Ohio, Chairman

JOHN W. WARNER, Wyoming              MAX BAUCUS, Montana
ROBERT SMITH, New Hampshire          DANIEL PATRICK MOYNIHAN, New York
CHRISTOPHER S. BOND, Missouri        HARRY REID, Nevada
JAMES M. INHOFE, Oklahoma            BOB GRAHAM, Florida
CRAIG THOMAS, Wyoming                JOSEPH I. LIEBERMAN, Connecticut

                                  (ii)



                            C O N T E N T S

                              ----------                              
                                                                   Page

                             APRIL 15, 1999
                            GENERAL OVERVIEW
                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........     4
Graham, Hon. Bob, U.S. Senator from the State of Florida.........    39
Inhofe, Hon. Jim, U.S. Senator from the State of Oklahoma........    38
Thomas, Hon. Craig, U.S. Senator from the State of Wyoming.......     3
Voinovich, Hon. George, U.S. Senator from the State of Ohio......     1

                               WITNESSES

Barr, Kenneth L., Mayor, Ft. Worth, TX, on behalf of the U.S. 
  Conference of Mayors...........................................    26
    Prepared statement...........................................    63
Bartlett, Robert T., Mayor, Monrovia, CA, on behalf of the 
  National League of Cities......................................    28
    Prepared statement...........................................    72
Bowlden, Taylor R., vice president, Policy and Government 
  Affairs, American Highway Users Alliance.......................    35
    Prepared statement...........................................    77
Bray, Hon. Joan, Representative, Missouri State Legislature, on 
  behalf of the National Conference of State Legislators.........    21
    Prepared statement...........................................    59
Jacobson Jean, county executive, Racine County, WI, on behalf of 
  the National Association of Counties...........................    23
    Prepared statement...........................................    61
Kienitz, Roy, executive director, Surface Transportation Policy 
  Project........................................................    32
    Prepared statement...........................................    75
    Responses to additional questions from Senator Chafee........    76
Linton, Gordon, Administrator, Federal Transit Administration....     8
    Prepared statement...........................................    40
Martinez, Ricardo, Administrator, National Highway Traffic Safety 
  Administration.................................................    10
    Prepared statement...........................................    40
    Responses to additional questions from:
        Senator Chafee...........................................    58
        Senator Voinovich........................................    59
Wykle, Kenneth, Administrator, Federal Highway Administration....     5
    Prepared statement...........................................    40
    Responses to additional questions from:
        Senator Chafee...........................................    53
        Senator Voinovich........................................    56
    Letter to Senator Chafee.....................................    58

                          ADDITIONAL MATERIAL

Fact Sheets, Traffic Safety Facts 1997..........................114-177
Report, Listening to America: Implementing TEA-21...............104-114
Statements:
    Electric Vehicle Association of the Americas.................    82
    National Highway Traffic Safety Administration...............    83
                                 ------                                

                             APRIL 29, 1999
                      SECTION 1309 IMPLEMENTATION
                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.......181, 210
Chafee, Hon. John H., U.S. Senator from the State of Rhode Island   181
Inhofe, Hon. Jim, U.S. Senator from the State of Oklahoma........   210
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...   179

                               WITNESSES

Alb, Jerry, Director, Environmental Services, Washington State 
  Department of Transportation...................................   189
    Prepared statement...........................................   272
    Responses to additional questions from Senator Chafee........   275
Carper, Hon. Thomas, Governor, State of Delaware, on behalf of 
  the National Governors' Association............................   182
    Prepared statement...........................................   211
    Report, Federal Highway Administration and Federal Transit 
      Administration.............................................   213
Holmes, Brian R., executive secretary, Connecticut Road Builders 
  Association, American Road and Transportation Builders 
  Association....................................................   201
    Prepared statement...........................................   290
Kienitz, Roy, executive director, Surface Transportation Policy 
  Project........................................................   199
    Prepared statement...........................................   288
Leslie, Mitch, president, Montana Contractors' Association, 
  Associated General Contractors.................................   203
    Prepared statement...........................................   295
    Responses to additional questions from:
        Senator Chafee...........................................   300
        Senator Voinovich........................................   299
Mills, Hon. Brian, commissioner, Cass County Missouri, chairman, 
  Association of Metropolitan Planning Organizations.............   188
    Issue paper: Recommendations for Implementing TEA-21.........   264
    Prepared statement...........................................   260
    Responses to additional questions from:
        Senator Chafee...........................................   270
        Senator Voinovich........................................   270
Stowe, Tim, chairman, Transportation Programs, American 
  Consulting Engineers Council...................................   197
    Prepared statement...........................................   281
    Report, Environmental Streamlining: Measuring Results........   283
    Responses to additional questions from:
        Senator Chafee...........................................   285
        Senator Voinovich........................................   287
Thompson, Charles, Secretary of Wisconsin Department of 
  Transportation, chairman of Standing Committee on Environment, 
  AASHTO.........................................................   185
    Letters:
        American Consulting Engineers Council....................   284
        AASHTO...................................................   233
    Prepared statement...........................................   230
    Report, Environmental Streamlining...........................   283
    Table, AASHTO...............................................236-259

                          ADDITIONAL MATERIAL

Letter, American Association of State Highway and Transportation 
  Officials (AASHTO).............................................   233
Reports:
    Environmental Streamlining: Measuring Results................   283
    Federal Highway Administration and Federal Transit 
      Administration.............................................   213
Table, AASHTO Response to FHWA/FTA Document: TEA-21 Planning and 
  Environmental Provisions......................................236-259
                                 ------                                

                              JUNE 9, 1999
                       ENVIRONMENTAL STREAMLINING
                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........   304
Chafee, Hon. John H., U.S. Senator from the State of Rhode Island   303
Graham, Hon. Bob, U.S. Senator from the State of Florida.........   310
Smith, Hon. Robert, U.S. Senator from the State of New Hampshire.   324
Thomas, Hon. Craig, U.S. Senator from the State of Wyoming.......   305
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...   301

                               WITNESSES

Conti, Eugene, Assistant Secretary of Transportation Policy, 
  Department of Transportation...................................   307
    Prepared statement...........................................   331
    Responses to additional questions from Senator Voinovich.....   335
Frampton, George T., acting director, Council on Environmental 
  Quality........................................................   306
    Prepared statement...........................................   329

                          ADDITIONAL MATERIAL

Memo: Final Draft--Environmental Streamlining Memorandum of 
  Understanding..................................................   327
Letter, To Kenneth Wykle, several Senators.......................   328
List, Highway Projects Opposed by the Sierra Club................   339
Statement of American Trucking Association, Inc..................   336



  IMPLEMENTATION OF THE TRANSPORTATION EQUITY ACT FOR THE 21ST CENTURY

                              ----------                              


                        THURSDAY, APRIL 15, 1999


                               U.S. Senate,
 Subcommittee on Transportation and Infrastructure,
                 Committee on Environment and Public Works,
                                                    Washington, DC.

                            GENERAL OVERVIEW

    The subcommittee met, pursuant to notice, at 9:32 a.m. in 
room 406, Senate Dirksen Building, Hon. George Voinovich 
(chairman of the subcommittee) presiding.
    Present: Senators Voinovich, Baucus, Thomas, and Chafee [ex 
officio].

          OPENING STATEMENT OF HON. GEORGE VOINOVICH, 
              U.S. SENATOR FROM THE STATE OF OHIO

    Senator Voinovich. Good morning. I'd like to welcome all of 
you.
    As a freshman Senator, I've been given the honor to kickoff 
this hearing as the subcommittee chairman. I really am grateful 
the chairman of the Environment and Public Works Committee, 
Senator Chafee, is here with us this morning.
    I am pleased to welcome Ken Wykle, Federal Highway 
Administrator; Gordon Linton, Federal Transit Administrator; 
and Dr. Richard Martinez the National Highway Traffic and 
Safety Administrator.
    I'd also like to welcome State representative, Joan Bray of 
St. Louis who is Missouri chairwoman of the Transportation 
Committee of the National Conference of State Legislators; 
Mayor Kenneth L. Barr of Forth Worth, TX who is vice chairman 
of the Transportation Committee of the U.S. Conference of 
Mayors; Mayor Robert Bartlett of Monrovia, CA on behalf of the 
National League of Cities who is chairman of the Committee on 
Transportation and Infrastructure Services.
    On the third panel, I'd like to welcome Taylor Bowlden of 
American Highway Users Alliance and Ray Kienitz with the 
Surface Transportation Policy Project.
    The Transportation Equity Act for the 21st Century, TEA-21 
as it is known, was accomplished through a long negotiation 
process involving many of the panelists who are here today. 
Although I was not a member of the U.S. Senate last year, I was 
involved as chairman of the National Governors Association in 
that negotiation in a modest fashion. I must say that if it 
were not for the leadership of others on this committee, like 
Senators Chafee, Warner and Baucus, I don't believe that TEA-21 
would have become a reality.
    This is especially true as it relates to the revenue or 
line-budget authority for firewalls, whereby today everything 
that goes into the Highway Trust Fund is spent for its intended 
purpose. That was a major accomplishment.
    I am pleased with the final results of TEA-21. There is now 
balance among the 50 States because TEA-21 ensured equitable 
funding formulas and again that was the subject of a great deal 
of negotiation. In fact, because of the changes in TEA-21 to 
more equitably distribute highway trust funds, my own State 
will receive 23 percent more funding than we did under ISTEA.
    Our subcommittee goal is to ensure that this legislation is 
being implemented properly with appropriate oversight involving 
the Administration, State and local governments and the user 
community. We are starting off our hearing series today with a 
general overview of TEA-21 and its implementation. On April 29, 
we will hold our second hearing on streamlining and project 
delivery. At that hearing, we will have various interested 
parties testifying on their views on implementation of TEA-21, 
Section 1309, Environmental Streamlining. The Administration 
will then testify on May 20, reacting to testimony given on the 
29th and their TEA-21 planning and environmental provisions, 
title options for discussion. So we will have three hearings 
over this to see how we can make sure this is done properly 
over the next several years.
    We have to start looking at the big picture. I believe we 
need to work together on a more comprehensive approach. One of 
the things I promised to do when I came here was to help the 
Federal Government become a better partner to State and local 
governments. I think that is very important. We are all in this 
together.
    It's imperative that we coordinate our efforts between the 
agencies, Congress and the States and localities and the user 
community to maximize the benefits of TEA-21. TEA-21 builds on 
the foundation achieved in ISTEA, ensuring there is shared 
decisionmaking between the Federal, State and local governments 
based upon public participation in the planning process.
    I remain strongly committed as the new subcommittee 
chairman to the structure set up by my colleagues in TEA-21. I 
will work particularly hard to ensure that State and local 
governments who know best what their individual priorities are 
continue to contribute positively in setting our transportation 
priorities.
    While the Administration proposed in its budget submission 
to reopen TEA-21, I can say frankly that I do not intend to do 
so, nor do I believe anyone on the subcommittee or the full 
committee has any interest in doing that. I think we have to 
lay our cards on the table early on. We should continue with 
the guarantees administered and maintained by the formula rules 
established in TEA-21.
    Finally, I'd like to say that Senator Inhofe and I are 
deeply troubled about the ramifications of a recent Federal 
Court case that could make highway projects across the country 
ineligible for Federal funds. We're going to hear a lot more 
about that here in the next couple of weeks. This court 
decision overturns a well-established EPA rule that allowed 
projects to move forward even if a State's transportation plan 
subsequently failed to meet Clean Air goals.
    We've sent a letter to EPA Administrator Carol Browner 
requesting that EPA appeal this decision. We do not believe it 
is wise to put into doubt the ability of transportation 
planners to proceed with much needed projects, particularly if 
the Government is allowed to change the rules along the way. If 
this court decision stands, highway projects will come to a 
standstill in many parts of this country, as well as the 
economic benefit associated with new highway construction 
because these projects will no longer be in compliance.
    I want to say that I appreciate the witnesses being here 
today and I'd like to now call on Senator Chafee to make some 
comments.
    Senator Chafee. Thank you very much, Mr. Chairman.
    First, I want to commend you for conducting these oversight 
hearings. I think you have an excellent program here where 
you're going to do this over 3 days and I just want to join in 
the commendation to you for grasping the reins and moving 
forward with this.
    I also want to second what you said about not wanting to 
reopen TEA-21. We have a formula there and this should not be 
the occasion to change those formulas that we arrived at after 
a lot of negotiation a year ago.
    Mr. Chairman, I look forward to the witnesses and again 
commend you for these hearings.
    Thank you.
    Senator Voinovich. Thank you.
    Senator Craig Thomas from Wyoming.

 OPENING STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR FROM THE 
                        STATE OF WYOMING

    Senator Thomas. Thank you, Mr. Chairman.
    I too congratulate you on getting started. What I'm going 
to say is a little repetitious but maybe that is all right. I 
want to thank you for holding the hearings and congratulate you 
on your chairmanship.
    In the last Congress, all of the members of this committee 
under Senators Chafee, Warner and Baucus worked very hard and I 
think passed a good bill. By and large, we succeeded in doing 
that. Today, I want to encourage the Administration to 
implement TEA-21 in a manner which simplifies and not 
complicates the delivery of projects and programs. Further, it 
should not impose requirements on State and local governments 
which are not prescribed in the statute. They were designed to 
give maximum flexibility.
    I do have one concern about a provision of TEA-21 that I 
believe needs to be changed. In the last Congress, one of my 
priorities was to increase the funding for Federal lands and 
the highway program. We succeeded in the overall 57 percent 
increase. As chairman of the Park Subcommittee, I'm 
specifically interested in road funding for our national parks 
which nationwide face funding requirements of nearly $2 
billion. TEA-21 gave the parks a 96 percent increase.
    Unfortunately, TEA-21 brought the Federal Lands Highway 
Program under the obligation limitation. Thus, in this fiscal 
year, the parks and roads are able to spend only $143 million 
instead of the authorized $165 million. This was not the case 
in the original ISTEA. With the backlogs that are faced, it 
seems to me this change is counterproductive. So I want to work 
with the chairman to see if we can do something about that. It 
is my understanding that these funds, if they are not 
obligated, could revert to the State and away from the park. I 
think that was not the intention and I'd like to work at 
changing that.
    Thank you.
    Senator Voinovich. Senator Baucus, the Ranking Minority 
Member on the subcommittee and the main committee, is here with 
us this morning. Senator Baucus, we welcome you.

  OPENING STATEMENT OF HON. MAX BAUCUS, U.S. SENATOR FROM THE 
                        STATE OF MONTANA

    Senator Baucus. Thank you very much, Mr. Chairman. I am 
very pleased to be here as you open these hearings as chairman 
of the subcommittee.
    As you know, you have big shoes to fill. Senator Warner of 
Virginia did an excellent job as previous chairman of the 
subcommittee and I know you will do as well. I very much look 
forward to working with you as I did with Senator Warner. 
Senator Chafee can tell you, and as you already know, Senator 
Chafee, myself and Senator Warner really burned the midnight 
oil putting together the highway bill, TEA-21 and we welcome 
you as a part of the group even though Senator Warner is no 
longer chairman of the subcommittee.
    I have just a couple of things to say. First, this is an 
extremely important law. I cannot overemphasize that. Not only 
does it add 40 percent additional funds to the State highway 
programs--a big chunk of change--but it also was designed to 
streamline the program so that States could transfer from one 
program to another, one account to another and use the program 
more effectively to meet the State's needs. By and large, I 
think the program is working somewhat well, but I have a couple 
of points I do think have to be addressed.
    The first is the President's budget proposal to redirect 
the additional highway funds is fiscal year 2000. That is a 
non-starter. We all in the Congress worked very hard to set up 
the allocations among States and among programs and it makes no 
sense to redirect the additional funds in a way other than 
provided for in TEA-21. Judging the reaction of my colleagues 
after the proposal came out, I think most will agree that is a 
non-starter. I, for one, will not agree to and will work hard 
to oppose any redirection of that money.
    Second, I'm concerned about the Department's recent options 
paper on implementing and streamlining the provisions of TEA-
21. Here again, I think the Department got a little off course. 
Delivering better highways is obviously complicated but TEA-21 
was drafted with the belief that the existing process was too 
complex. My guess is that in the bowels of bureaucracy it 
happens everywhere, I don't mean to single out the Highway 
Administration or DOT, it happens within my own office, that 
sometimes the directions get a little bit fuzzed in the 
implementation because each person has his own idea about 
things and wants to retain a little bit of ownership or 
whatnot. So I'd just tell the Department we've got to do a 
better job in streamlining.
    Senators Wyden and Graham, among the leaders in the effort 
to streamline the process, worked on the bill while still 
maintaining environmental and other procedures. I think the 
options paper goes in the opposite direction, suggesting more 
complications and greater prescriptions, not a simpler, more 
flexible process and we need to reverse that.
    The Department needs to focus more on what it can do to 
streamline not just interagency actions, but also its own 
internal procedures. That alone would achieve many of the 
benefits that Congress is looking for in this area. I want to 
tell you too that Senator Thomas is working with all of us to 
try to accomplish the same objectives and I thank him very 
much, my colleague from Wyoming, because it is a real joint 
effort. We want to work with the Department too.
    Thank you very much.
    Senator Voinovich. Thank you, Senator Baucus. Prior to your 
coming in, I made it very clear that Senator Chafee, you and 
Senator Warner were the spark plugs that made this happen and I 
wanted to publicly thank you for the role that you played. I 
think you took on a very, very difficult task and came back 
with something that was applauded across the board by all of 
the parties that were interested.
    We're going to begin the hearing with Ken Wykle who is the 
Federal Highway Administrator.
    At the outset, I'd like to indicate that your written 
testimony will be accepted into the record and if possible, if 
you could summarize it in a 5-minute period of a little bit 
more, just hit the highlights so that we make sure we get the 
points you'd like to make and also to make sure the rest of the 
people here to testify will have an opportunity to testify.
    Senator Chafee, I've been a witness here before this 
committee and others and been way at the end of the list. By 
the time they got to me, I think I had about a minute.
    Senator Chafee. Never be the last witness.
    Senator Voinovich. So if we can move it along and respect 
the time of everyone, it would be great.
    Thank you for coming, Mr. Wykle.

  STATEMENT OF KENNETH WYKLE, ADMINISTRATOR, FEDERAL HIGHWAY 
                         ADMINISTRATION

    Mr. Wykle. Mr. Chairman, members of the subcommittee, we 
are pleased to appear before you today to discuss 
implementation of TEA-21. TEA-21 reflects the commitment of the 
Congress and the Administration to rebuild America's decaying 
infrastructure in a fiscally responsible manner, while 
increasing safety, improving the environment and expanding 
opportunity.
    We thank this committee for your role in enacting TEA-21 
and we look forward to continuing to work with you as we 
implement all of the provisions of this important law.
    We initiated a three-pronged approach to implementation. 
TEA-21 funds were made available to the States the day the 
President signed the bill. We expedited actions necessary to 
implement important safety provisions of TEA-21 and we 
conducted an extensive national outreach to our partners and 
customers, asking for their advice and assistance in 
implementing the new programs and provisions of this landmark 
legislation.
    In the area of safety, Secretary Slater has made safety the 
Department of Transportation's top priority. TEA-21 expands and 
strengthens successful highway safety programs. We have issued 
implementing regulations for all of the new and amended highway 
safety programs that Congress intended to be in effect in 1999.
    TEA-21 continues the 10 percent Surface Transportation 
Program setaside for safety. In 1999, Federal Highway made 
available $154.8 million to States to be used exclusively for 
rail-highway crossing improvements or elimination and $162 
million exclusively for hazard elimination. An additional $315 
million are available for either of these two programs.
    TEA-21 increased motor carrier safety funding by 30 
percent. We have distributed $90 million in Motor Carrier 
Safety Assistance Program, MCSAP, funds to the States. TEA-21 
moved MCSAP from an activity-based program to a performance-
based one. This approach is now implemented in all States, well 
ahead of the TEA-21 year 2000 requirement.
    FHWA published a notice of proposed rulemaking on March 9, 
1999 to implement the MCSAP changes. For the first time, this 
creates incentive funding to encourage States to reduce 
crashes.
    On the day TEA-21 was signed, FHWA released the 1998 
Federal Aid Highway apportionments to the States and then we 
apportioned the 1999 Federal Aid funds on the first day of the 
current fiscal year. We made available over $450 million of 
discretionary funds for fiscal years 1998 and 1999 to the 
States and we will release an additional $140 million in 
discretionary funds this spring.
    FHWA listened to our partners and others and kept them 
informed about our implementation efforts.
    To review our aggressive schedule of our activities, in 
July we published guidance in the Federal Register for the 
discretionary programs for bridges, ferries, interstate 
maintenance and public lands highways. In September, we 
published guidance for the National Scenic Byways Program and 
the interstate discretionary funds. In October, we published 
guidance for the Value Pricing Pilot Program, implementation 
procedures for projects to reduce the evasion of motor fuel and 
other highway use taxes and interim guidance for the Congestion 
Mitigation and Air Quality Improvement Program.
    In November, we published implementation information for 
innovative bridge research and construction program funds. On 
November 12, we published a Federal Register notice soliciting 
participation in the new National Corridor Planning and 
Development Program and the Coordinated Border Infrastructure 
Program. We have received over 140 applications requesting $2 
billion and we expect to announce this spring the distribution 
of the $124 million that we have available for this program.
    The States are also moving aggressively to take advantage 
of the increased Federal aid highway funding available through 
TEA-21. As they manage these increased funds, we anticipate 
greater use of the TEA-21 Federal matching flexibility 
provisions. We are implementing the Transportation 
Infrastructure Financing and Innovation Act, TIFIA. We plan to 
publish a final rule for this program later this spring and to 
select projects for the initial round of funding in fiscal year 
1999 by the end of the fiscal year.
    TEA-21 continues the Disadvantaged Business Enterprise 
Program and the Department published its final rule on February 
2, 1999. The rule has three major goals: to create a level 
playing field, to mend but not end the DBE Program, and to make 
the program more effective and efficient.
    TEA-21 continues the multiyear authorization funding for 
research and technology, but TEA-21 also changed the way R&T 
funding is provided. This has presented challenges. Due to 
obligation limits and increased designations, the amount of 
funds available at the Federal level has been reduced. FHWA is 
working with AASHTO, TRB and others to identify resources to 
assure priority needs are addressed, but we need increased R&T 
funding in the future.
    TEA-21 recognizes the need to integrate technology and 
promotes ITS standards. Interim guidance on consistency with 
the national ITS architecture was published in the Federal 
Register in December 1998. We are developing final guidelines 
which will be in place in the spring of 2000, but as with R&T 
generally, Federal ITS funding presents challenges that must be 
met if we are to effectively field ITS.
    In the area of planning and the environment, TEA-21 directs 
the Department of Transportation to develop and implement a 
coordinated environmental review process for highway and mass 
transit projects. In September, we published a notice in the 
Federal Register announcing a series of public meetings to be 
held around the country in the fall of 1998. We conducted four 
listening sessions.
    A Federal interagency meeting was convened earlier this 
month and we expect to complete a memorandum of understanding 
within the next 2 months. We also met with the American 
Association of State Highway and Transportation Officials 
earlier this month. We received input from other stakeholders, 
including the American Public Transit Association, the American 
Association of Metropolitan Planning Organizations and the 
Coalition to Defend NEPA. Rulemaking will be required to change 
existing requirements and we expect to publish a notice of 
proposed rulemaking within the next 120 days, but as has been 
noted, this is going to be a challenge in terms of getting out 
the final rule.
    The President announced a Livable Communities Initiative 
earlier this year to help communities across America achieve 
strong, sustainable economic growth while ensuring a high 
quality of life for its citizens. TEA-21 will advance this 
initiative.
    For example, TEA-21 established the Transportation and 
Community and System Preservation Pilot Program, TCSP, to 
provide funds to State, regional and local agencies to develop 
innovative strategies that improve transportation systems. We 
published a Federal Register notice on September 16, 1998 
soliciting TCSP project proposals and setting forth selection 
criteria. We received and evaluated 520 letters of intent, 
selected 49 finalists and expect to announce the final fiscal 
year 1999 selections soon.
    FHWA continues to pursue efficiencies. We have restructured 
to remove a management layer and empower our State 
administrators and State motor carrier directors to make more 
decisions and certifications and to be more responsive to the 
States, industry, universities, associations and interest 
groups. We are reducing duplication within the headquarters, 
changing processes, reaching out to our partners and customers 
and emphasizing knowledge sharing and transfer. We add value 
through knowledge management.
    Efficiencies are also being achieved by leveraging 
technology--Superpave, composites, polymers, fibers, epoxies, 
nondestructive testing, modeling and simulations. FHWA is well 
positioned and prepared for the next century.
    In conclusion, this committee has played a pivotal role in 
developing and refining the programs in TEA-21. We are working 
aggressively to implement TEA-21 quickly and effectively. 
Implementation has gone smoothly and we look forward to 
continuing to work with you as we completely implement TEA-21.
    I look forward to your questions.
    Senator Voinovich. Thank you, Administrator Wykle. That was 
a mouthful.
    Mr. Wykle. It was.
    [Laughter.]
    Senator Voinovich. It sounds like you've launched a rocket.
    Mr. Wykle. There's a lot in TEA-21 to be done, sir.
    Senator Voinovich. We will now hear from Mr. Linton, the 
Federal Transit Administrator.

  STATEMENT OF GORDON LINTON, ADMINISTRATOR, FEDERAL TRANSIT 
                         ADMINISTRATION

    Mr. Linton. Mr. Chairman and members of the committee, it's 
a pleasure for me to have been asked to appear before you with 
my colleagues this morning. The primary committee with which I 
have spent a great deal of my time over the last 6 years on the 
Senate side has been the Banking Committee and generally the 
Appropriations Committee, so I welcome the opportunity, ``one-
DOT'' to appear before you this morning as we discuss the 
implementation of TEA-21.
    Let me say that we have had a very good run in our efforts 
on the transit side to implement the transit portions of TEA-
21. One of our first steps was an extremely extensive period of 
outreach as we set out to share the changes of TEA-21 and to 
get input from the customers on how we should implement TEA-21.
    Last year, we held many of those across the country and 
they all were well attended. We received a great deal of 
feedback and we have used that feedback in an effort to respond 
to our customers in our implementation of the program.
    One of the key changes made in transit programs within TEA-
21 was our effort to transition the industry from the old 
concept of operating assistance, particularly for urbanized 
areas over 200,000, to the utilization of a new definition of 
``capital project'' which includes preventive maintenance. 
Preventive maintenance includes, under our definition, all the 
maintenance costs that, for the most part, were previously 
considered operating assistance. This change has gone extremely 
well. The change has operated very smoothly. In nearly all 
cases, the change in definition of ``capital project'' has had 
the intended effect of providing the flexibility that the local 
systems need to make the transition to an all capital program.
    Let me also say that one of the areas of TEA-21 that 
receives the most interest is our New Starts Program. TEA-21 
authorized 191 new start projects over the life of TEA-21. The 
TEA-21 provisions also called on FTA to rank these projects as 
``highly recommended,'' ``recommended'' or ``not recommended.''
    We recently published our annual new starts report which 
rated the 40 or so projects now in final design or preliminary 
engineering. We have used the existing new starts policy to 
rate these projects since TEA-21 only made minor changes in the 
statutory criteria. Quite frankly, we are very happy with the 
rating process so far.
    While a number of projects were rated ``not recommended,'' 
most of those were so rated because the local financial plans 
are not yet far along enough for those projects to be rated as 
``recommended'' or ``highly recommended.'' Local financial 
commitments are continuing to be refined throughout the course 
of the projects. We have always encouraged strong, local 
financial commitments, so the rating should not have been a 
surprise to any of the project sponsors.
    We have also issued a notice of proposed rulemaking on new 
starts. This notice of proposed rulemaking, issued on April 7, 
begins the formal process of issuing the regulation required by 
TEA-21 to define the new starts rating process in more detail 
and put the other new start project changes in place.
    Let me briefly cover two programs that were created by TEA-
21--the Job Access and Reverse Commute Program and the Clean 
Fuels Program.
    First, the Job Access and Reverse Commute Program provides 
grants for transportation services for people getting off 
welfare, making the transition from welfare to work, and to 
improve reverse commute services to allow center city residents 
better access to suburban jobs.
    We have issued a solicitation for grants and received a 
very positive result with applications totaling over $111 
million in funds, for a program in which we have $75 million 
available in fiscal year 1999. We believe this response 
demonstrates the need for the program, so we are now in the 
process of completing our review of the applications. We too, 
like my colleague, Administrator Wykle, will be making 
announcements very soon on those who will receive the grants 
for the Access to Jobs Program.
    TEA-21 also created a new Clean Fuels Formula Program. 
Since the DOT Appropriation Act fully earmarked these funds in 
fiscal year 1999, we were not able to implement this program as 
prescribed in TEA-21. The President's budget for 2000 
contemplates the implementation of the program as it was 
enacted in TEA-21.
    We are also particularly excited about the changes made by 
TEA-21 to the Tax Code provision related to employer-provided 
transportation benefits. We are taking a very aggressive role 
in encouraging the implementation of these changes which are 
commonly called commuter choice. We are extremely grateful for 
the leadership of this committee in that particular program. I 
would particularly like to call out the leadership of Senator 
Chafee on our commuter choice program as well.
    As you know, TEA-21 allowed transit benefits up to $65 per 
month to be provided in lieu of compensation, including the 
incentive for employers to provide transit passes to their 
employees. It also will raise the level playing field for tax-
free transit benefits to $100 per month in the year 2002.
    We have dedicated a program of outreach and technical 
assistance to this particular element of TEA-21 and we plan to 
increase our efforts in the latter part of this year to 
continue to enhance our access and information on the commuter 
choice program.
    To conclude, Mr. Chairman and members of the committee, 
while FTA's core programs were not changed substantially by 
TEA-21, many of the other changes are extremely significant. We 
are working hard to implement them as quickly and as 
effectively as possible. Implementation to date has gone 
extremely well, and we look forward to working with you to 
ensure that the remaining issues such as the planning and 
environmental streamlining, mentioned by many of you this 
morning, can be moved effectively, to ensure that we have an 
effective program that responds to the needs of our customers, 
that leads us to have a very effective operation and 
government, but at the same time, protecting the environmental 
issues that are dear to all of us.
    I look forward to answering the questions that you may have 
and look forward to continuing to work with you as we go forth 
and continue to implement this great historic legislation. I 
thank all of you for your involvement in its fruition. We look 
forward to working with you as we continue to implement it.
    Senator Voinovich. Thank you, Administrator Linton.
    I will now call on Administrator Martinez. You have been to 
Ohio many times and we've tried to be one of your best 
customers and a role model for you----
    Dr. Martinez. We appreciate that.
    Senator Voinovich. [Continuing] ----from what we've done to 
reduce highway crashes in our State.
    I am also grateful for the money that you provided for our 
grade crossing program that has come out of the Department. We 
have really gone forward with your cooperation in eliminating a 
lot of those unsafe rail crossings.
    Dr. Martinez.

STATEMENT OF RICARDO MARTINEZ, ADMINISTRATOR, NATIONAL HIGHWAY 
                 TRAFFIC SAFETY ADMINISTRATION

    Dr. Martinez. Mr. Chairman and members of the subcommittee, 
I appreciate the opportunity to testify today, especially with 
my distinguished colleagues.
    The NHTSA programs have made solid contributions in highway 
safety. They really are a great investment. Since 1992 alone, 
these programs have saved over 60,000 lives, but traffic safety 
remains a national challenge. In 1997, for example, almost 
42,000 people died and more than 3 million people were injured 
in just the police-reported crashes.
    Highway crashes still cost our nation over $150 billion a 
year. The public shares this cost in increased premiums and 
through tax-funded programs such as Medicaid and Medicare. So 
highway safety is good economics as well as good medicine.
    My goal today is to provide you with a status report of the 
grant programs from this historic legislation, to thank you for 
your support and to find out how our agency can better work 
with Congress on these important issues.
    I am pleased to report that NHTSA has issued regulations to 
implement the programs you gave us in TEA-21 for fiscal year 
1999. I have a graphic that presents the status of regulations 
so it can be referred to.

                      TEA-21 Status of Regulations
------------------------------------------------------------------------
           Regulation                  Published           Milestone
------------------------------------------------------------------------
S. 157-Seat Belt Use Incentive..  10/29/98..........  Grants awarded 10/
                                                       29/98
S. 157-Seat Belt Use Innovative.  1/7/99............  Applications
                                                       received 4/7/99
Seat Belt Survey Guidance.......  9/1/98............  Surveys received 3/
                                                       1/99
S. 163-.08 Incentive............  9/3/98............  Grants awarded 9/3/
                                                       98
S. 154-Open Container...........  10/6/98...........  Transfer begins 10/
                                                       1/00
S. 164-Repeat Offenders.........  10/9/98...........  Transfer begins 10/
                                                       1/00
S. 410-Alcohol Incentive........  12/29/98..........  Applications due 8/
                                                       1/99
S. 405a-Occupant Protection.....  10/1/98...........  Applications due 8/
                                                       1/99
S. 411-Data Incentive...........  10/8/98...........  Grants awarded 3/3/
                                                       99
S. 405b-Child Passenger Educ....  Being Drafted.....  Begins FY 2000
------------------------------------------------------------------------


    We issued the rules for our regulations in record time so 
the States could consider that in time for their 1999 
legislative sessions.
    I want to say that our staff worked very hard over many 
long hours. They worked weekends, they stayed late to get the 
grant funds out as soon as possible. Their work breathed life 
into these programs in a way we believe has maximized the 
States' chances of qualifying for incentive grants and avoiding 
transfer penalties.
    Two of these programs particularly confront the biggest 
challenges facing us in highway safety, increasing seatbelt use 
and reducing impaired driving. Today, seatbelt use is just 
under 70 percent, up from 11 percent in 1982, but it's moved a 
lot in the last few years. At this level, we're saving more 
than 10,000 lives each year.
    Congress authorized $500 million over 5 years for incentive 
grants to encourage States to increase seatbelt use. The States 
receive funds based on estimates of annual savings of Federal 
medical costs, which we think is really a good idea. Everyone 
should understand the connection between these crashes and what 
they pay.
    In fiscal year 1999, the first of the program, we made 
grants to 38 States and Puerto Rico totaling approximately $53 
million. Since the funds can be used for any title 23 project, 
we work closely with the Federal Highway Administration to make 
the best use of these dollars. You made some comments about 
that yourself. The unused funds of $20 million for this year 
are used in the Surface Transportation Program. In future 
years, they will go to an innovative grant program to help 
increase seatbelt use.
    Programs to prevent impaired driving, one of the biggest 
highway safety problems, still about 16,000 deaths a year, have 
been extremely effective. In 1997, alcohol-related traffic 
deaths dropped to historic lows of about 39 percent of all 
traffic fatalities, dramatically lower than it was just 10 
years ago.
    Thanks largely to the age 21 minimum drinking age law and 
the zero tolerance law, crashes involving intoxicated drivers 
in the 16- to 20-year-old age group have fallen more than 30 
percent in the last 10 years.
    To address the impaired driving problem, Congress 
authorized $500 million over 6 years for incentive grants to 
encourage States to adopt .08 bac laws as the per se standard 
for driving while intoxicated. States may use these funds for 
any title 23 project. In fiscal year 1998, we made grants to 15 
States totaling $49 million, where .08 laws were in effect. 
Thus far this year, two additional jurisdictions for a total of 
17 have qualified. We are pleased the Congress provided support 
for other measures to combat impaired driving such as repeat 
offender laws.
    Mr. Chairman, NHTSA strongly shares your commitment to 
partnerships. During your term as Governor of Ohio, you took 
the lead in establishing 30 Safe Community programs. This 
program allows us to be partners with the States, for them to 
identify their problem using their data, and then to use our 
best practices, which we get from around the world to attack 
their problem. That is the way it should be, and we've found it 
to be very effective.
    You will be pleased to know that the new funds provided by 
TEA-21 will be available to support this community-based, 
injury prevention initiative. Over 620 communities are now 
nationally involved, exceeding our goal of 600 by the year 
2000. So we've revised our goal to 1,000 by the year 2000.
    NHTSA continues its leadership role in the safety aspects 
of the intelligent transportation system research program. A 
key task is to promote the development of intelligent crash 
avoidance technologies to enhance vehicle safety. We are also 
involved in DOT's intelligent vehicle initiative to accelerate 
the development and availability of high technology automotive 
projects and products to help drivers avoid crashes. That is 
the biggest bang for the buck because you don't have to have 
the crash.
    We are assessing the impact of these technologies, driver 
fatigue, and inattention on vehicle safety using sophisticated 
tools such as the National Advanced Driving Simulator.
    We are confident that TEA-21's programs can strongly 
advance the goal of improving highway safety. I'm especially 
proud of the efforts of my staff at NHTSA to bring these 
programs to the States in a real partnership way.
    I've met with our regional headquarters staff and I know 
they are enthusiastic about the new opportunities TEA-21 has 
given us to improve safety. We look forward to working with the 
subcommittee and making the opportunities provided by TEA-21 a 
reality.
    Mr. Chairman, this concludes my remarks and I will be glad 
to answer any questions.
    Senator Voinovich. I really appreciate the testimony of the 
panelists.
    I'd like to start the questions and try to ascertain 
whether or not the Department has communicated with Carol 
Browner in regard to this court decision and what the position 
of the Administration is going to be in regard to it? There are 
a lot of people around the country who are very worried about 
it. I know I talked with Secretary Slater when he was in to see 
me and I'd like to know the position of the Department in 
regard to it and what influence you're having with EPA or the 
Administration?
    Mr. Wykle. As you mentioned, a lot of different agencies 
within the Federal Government are involved. It's a DOJ decision 
in terms of whether or not they appeal but we at Federal 
Highway, the Department of Transportation, EPA and DOJ are 
looking at this issue right now.
    A court decision of this magnitude certainly carries with 
it some advantages if you appeal and are successful; it has 
some risks if you appeal and are not successful in that appeal. 
So we are continuing to meet. We are not required to submit a 
decision until tomorrow. Quite frankly, we haven't reached a 
final decision yet because there are a lot of varying views on 
this.
    We certainly have your letter, many of the States have come 
in with individual letters, we have heard from Governors, we've 
heard from AASHTO, we've heard from environmental groups. So 
there is a divergence of opinion there. We're trying to sort 
through all that to determine the potential risk because as the 
decision is currently written, there is still some flexibility 
in there for us.
    If we appeal and lose, it could be much more proscriptive 
as to specifically what we will be required to do. So we're 
trying to weigh all of that, then get a joint position between 
EPA, the Department of Transportation and DOJ for the decision 
that will be submitted tomorrow. However, at this time, we have 
not arrived at a definite decision.
    Senator Voinovich. Have you ascertained the projects in the 
country that would be in jeopardy as a result of that decision?
    Mr. Wykle. We have done some preliminary work, yes. Right 
now there are about 10 projects at approximately $80,000 that 
are at risk. Potentially, it could go as high as 85 projects, 
$1.2 billion in terms of value.
    We expect most of those States where there is impact to be 
back in compliance or conformity by the end of the summer. The 
one area right now that stands out as a very difficult 
challenge is Atlanta. They potentially have several projects 
down there approaching $461 million that could be in jeopardy 
in terms of being delayed until they reach conformity.
    This is a moving train because communities will come into 
conformity and others will go out, so the numbers will vary as 
we move forward looking at this.
    The court decision as currently rendered just strikes down 
the grandfathering provision. Right now, projects are 
grandfathered once they go through the NEPA approval process. 
So they are not grandfathered any longer having gone through 
that process but we do have some flexibility as to where 
project approval is being considered as a part of the 
conformity definition. That is what we're debating at the 
present time.

</pre></body></html>
